                Office of Inspector General, USDA
                   Investigation Developments

>>January 18, 2007<<


OIG Teams With DHS Agencies to Intercept Over 1 Million Pounds of Illegally
Imported Food

On January 10, 2007, OIG Special Agents teamed with U.S. Immigration and Customs
Enforcement (ICE) to seize materials and documents related to illegal importation of
prohibited foodstuffs and merchandise. In late 2005, USDA Animal and Plant Health
Inspection Service (APHIS) asked U.S. Customs and Border Protection (CBP) to inspect
containers believed to contain illegal food from China. ICE then initiated a criminal
investigation and requested the assistance and participation of OIG. Operation Fowl
Play, a joint operation between OIG, ICE, and CBP, led to the seizure of 50 shipments at
the Port of Newark totaling 1,039,077 pounds of prohibited food including poultry, fowl,
meat, pork, vegetables, and fruit. Also participating in the investigation were USDA’s
Food Safety and Inspection Service (FSIS) and U.S. Fish and Wildlife Service.

Two Pet Product Companies Agree to Pay $736,000 for Ineligible Receipt of Market
Access Program Funds

On December 27, 2006, two pet product companies agreed to a $736,000 civil settlement
with the U.S. Attorney’s Office, Eastern District of Pennsylvania. The OIG investigation
disclosed that the companies received approximately $600,000 in Market Access
Program (MAP) funds for which they were not eligible. MAP funds are distributed by
Foreign Agricultural Service (FAS) to promote worldwide use and sale of agricultural
products by U.S. small businesses. Companies must meet Small Business
Administration’s definitions of “small business” to be eligible for that particular MAP
funding. In this case, the companies are affiliated companies with the larger company
employing over 2,300 people with yearly revenues approaching $1 billion, thereby
making the first company ineligible to receive MAP funds.

North Dakota Farmer Sentenced and Ordered to Pay $228,246 for Submitting False
Statements

On December 18, 2006, a farmer was sentenced in U.S. District Court, District of North
Dakota, to 12 months probation (to include home confinement), and ordered to pay
$228,246 in restitution to Farm Service Agency (FSA)/Commodity Credit Corporation,
for making a false statement. The OIG investigation disclosed that the farmer submitted
false statements to FSA and, as a result, received $228,246 in loans to which he was not
entitled.
Georgia Farmer Sentenced and Ordered to Pay $112,741 for Conversion of
Mortgage Property

On December 18, 2006, a farmer was sentenced in U.S. District Court, Middle District of
Georgia, to 18 months of imprisonment and ordered to pay $112,741 in restitution for
conversion of mortgaged property. The OIG investigation disclosed that in May 2002,
the farmer received a farm operating loan from the Farm Service Agency secured with
the farmer’s cotton, grapes, peanuts, and wheat crops. The farmer harvested the crops
and converted approximately $74,000 in sales proceeds to his own use.

Virginia Woman Sentenced and Ordered to Pay $26,037 for Fraudulently Receiving
Food Stamp Benefits

On December 15, 2006, a woman was sentenced in U.S. District Court, Eastern District
of Virginia, to 9 months confinement and 36 months probation. Additionally, she was
ordered to pay $26,037 in restitution. The OIG investigation disclosed that the woman
concealed her employment from the Social Security Administration, and the Virginia
Department of Social Services and thereby received over $24,000 in benefits (including
food stamp benefits) dating back to 2000.

Washington State Real Estate Investor Sentenced, Ordered to Pay $90,000 for
Bribery of Rural Development Employee

On December 7, 2006, a real estate investor was sentenced in U.S. District Court, Eastern
District of Washington, to 36 months of supervised release, community service; $90,000
payment to charity; and forfeiture of $10,000 bribe. The OIG investigation disclosed that
the investor paid a $10,000 bribe to a Rural Development (RD) employee for exclusive
access to purchase two USDA foreclosure properties. The investigation also disclosed
that an auctioneer involved in the sale of RD foreclosures paid a $3,000 bribe to an RD
employee. He received bids for foreclosed houses that were significantly higher than
were being reported and/or reimbursed to RD. The auctioneer is awaiting sentencing.

Pennsylvania Convenience Store Owner Forfeits $252,000 for Food Stamp
Trafficking

On November 28, 2006, a convenience store owner pled guilty in U.S. District Court,
Western District of Pennsylvania, to Operation of Unlicensed Money Transmitting
Businesses and agreed to forfeit over $252,000. The store owner was engaged in food
stamp trafficking and operating an unlicensed money transmitting business. The OIG
investigation disclosed that during January 2001 – May 2006, the store owner transmitted
over $7 million without registration and license forms required by State and Federal law.
The store owner bought and sold stolen goods such as infant formula, counterfeit
cigarettes, drug paraphernalia, and counterfeit music CD’s. This joint investigation was
part of a taskforce that included agents from FBI; U.S. Immigration and Customs
Enforcement; U.S. Secret Service; IRS; and Pennsylvania Department of Revenue.
